/
1

v- ■

APPENDIX

la

J

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MANDATE FILED MARCH 25, 2020 APPPEAL
NO. 19-55351
D.C. No. 2-11 cv - 04996 PA
FMOx
U.S. District Court for Central California, Los
Angeles
DELANEY E. SMITH PHARM.D.,M.D
PLAINTIFF - APPELLANT,
AND PEOPLE OF THE UNITED STATES OF
AMERICA
PLAINTIFF,
v.

COUNTY OF LOS ANGELES; et al.,
Defendants — Appellees,
The judgment of this Court, entered on October 25,
2019 takes effect this date. This constitutes the
formal mandate of this Court issued pursuant to
Rule 41(a) of the Federal Rules of Appellate
Procedure.

FOR THE COURT
MOLLY C. DWYER
CLERK OF COURT
BY: Rhonda Roberts Deputy Clerk Ninth Cir. Rule
27-7
2a

*■'

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ORDER

FILED MARCH 17, 2020 NO. 19-55351

D.C. NO. 2-11 cv 04996 -PA FMO
CENTRAL DISTRICT OF CALIFORNIA
ANGELES

LOS

DELANEY E. MSITH PHARM.D.,M.D.
Plaintiff - Appellate
AND PEOPLE OF THE UNITED STATES OF
AMERICA,
Plaintiff
v.
COUNTY OF LOS ANGELES; et al.,
Defendants - Appellees
Before: Silverman, W. Fletcher, and Rawlinson,
Circuit Judges.
Appellant’s motion to disqualify the panel (Docket
Entry No. 19) is denied. Appellant has filed a
motion for reconsideration and motion for
reconsideration en banc (Docket Entry No. 20,23)
is denied.
The motion for reconsideration is denied and the
motion for reconsideration en banc is denied on
behalf of the court. See 9th Cir. R. 27-10; 9th Cir.
Gen. Ord. 6.11
No further filings will be
entertained in this closed case.
3a.

*!

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES

- GENERAL

CASE NO. CV 11-4996 PA (FMOx)
PEOPLE OF THE
AMERICA et. al.

UNITED

12/11/18
STATES

OF

v.
COUNTY OF LOS ANGELE et. al.
PERCY
ANDERSON,
DISTRICT JUDGE
PROCEEDINGS:

UNITED

STATES

COURT ORDER

Before the Court is a Motion to Reopen filed by pro
se plaintiff Delaney Smith Jr. (“Plaintiff’) (Docket
No. 57.) Pursuant to Rule 78 of the Federal Rules
of Civil Procedure and Local Rule 7-15, for the
Court finds this matter is appropriate for decision
without oral argument. The hearing calendared for
January 7, 2019 is vacated, and the matter taken
off calendar.
Plaintiff filed this action in Los Angeles Superior
Court on April 11, 2011. After defendants removed
the action this Court, the Court remanded the case
upon Plaintiffs explicit disclaimer of federal claims
alluded to in the Complaint. (See Minute Order of
July 25, 2011, CV 11-4996 PA (FMOx). After the
Superior court dismissed Plaintiffs action with
4a

prejudice, Plaintiff attempted to remove the action
to this Court. The Court remanded the action, as
plaintiffs cannot remove their own cases to federal
court. (See Minute Order of April 5, 2012, CV 121963 PA (FMOx).
After further unsuccessful
attempts at litigating in state court, Plaintiff filed a
Motion to Vacate Void Rulings and Judgment. The
court denied the motion, explaining that the Court
lacks subject matter jurisdiction over the action
and lacks the power to vacate state court rulings.
(See Minute Order of December 11, 2012 CV 114996 PA (FMOx)
The Court further ordered the Clerk to reject any
subsequent filings by Plaintff. This Motion to
Reopen is not exception to that order and is
therefore denied. The Clerk is ordered to reject any
subsequent filings by Plaintiff including any
further motions to reopen filed in this action or
People of the United States of America et. al v.
County of Los Angeles et. al CV 12 1963 (FMOX)
It is so Ordered

In light of Plaintiffs numerous, frivolous filings in
his state action — including 49 pleadings, 10
unsuccessful requests for entry of default, and
various other recusal motions
Plaintiff was
declared a vexatious litigant by the Superior Court
on Septembe 19, 2012 (See Docket No. 37 at 15-16
CV 11- 4996 PA FMOx)
5a

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
NOTICE OF ELECTRONIC FILING
The following transaction was entered on 3/18/20 at
L49 PM PDT and filed on 3/18/2020
CASE NAME:
America et. al.
CASE NUMBER:

People of the United States of
2:11 CV 04996 pa fmo

WARNING CASE CLOSED on 7/25/11
Document No. 64
Docket Text:
Notice of Clarical Error: Due to Docket entry item
[63] was docketed with the incorrect event. The
document is an order not mandate. The appeal has
been reopen until the 9th Circuit Mandate is issued,
(mat)
2:11 cv 04996 PA Notice has been electronically
mailed to Jennifer E. Gysler Clayton C.
Averbuck....

6a

■J

./
V

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
People of the United States of America et. al.
Plaintiffs
v.
County of Los Angeles
Defendants
Notice of Clerical Error
You are hereby notified of clerical error;
Other: Docket entry [63] was docketed with the
incorrect event. The document is an order not
mandate. The appeal has been reopen until the 9th
Cicuit Mandate is issued.
Clerk U.S. District

Date March 18, 2020
Torres

Deputy Clerk

7a

■J

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
NOTICE OF DOCUMENT DISCREPANCIES
TO U.S. JUDGE PERCY ANDERSON
FROM T. DURANT DEPUTY CLERK
DATE RECEIVED
(FMOx)

9/6/11

cv

11

4996 PA

Document entitled: Plaintiffs Notice of State Clerk
Error in Failing to File Order to Remand; etc

Case Closed: Judicial Review Required
ORDER
The document is not to be filed and processed but
instead REJECTED, AND ORDERED returned to
counsel. Counsel shall immediately notify in
writing, all parties previously served wth the
attached documents that said documents have not
been filed with the court.
9/6/11

District Court Judge Percy Anderson

8a

J

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT COURT OF CALIFORNIA
NOTICE OF DOCUMENT DISCREPANCIES
To; District Court Judge Anderson
From L. Rayford Deputy Clerk
Date Received 11/21/12
FILED NOVEMBER 26, 2012
Case No. CV 11 4996 PA (FMOx)
Case: People of the United States v. County of Los
Angeles
Document
Judgment

Entited-'

Application

for

Default

CASE IS CLOSED; MOTION TO VACATE STILL
PENDING
Document is not to be filed but instead REJECTED
and is ordered returned counsel
Counsel shall
immediately notify in writing all parties previously
served documents that said documents have not
been filed with the court. 11/26/12
Judge Percy Anderson District Court Judge
9a

-¥

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

2:12

CV 1963 pa (fmoX)

PEOPLE OF THE
AMERICA et. al.

UNITED

STATES

OF

Clerk cannot enter the request Default of
defendants filed on 3/12/2012 for the following
reason(s)
Case terminated on 3/13/12
to State Court

and Remanded back

Clerk of Court
By Phyllis Lopez
Deputy Clerk
DATE: March 14, 2012

NOTICE OF DEFICIENCY DEFAULT/DEFAULT
JUDGEMENT

10a

J
V

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES GENERAL
CV 12 - 1963 PA (FMOx) DATE:

March 13, 2012

Present Judge Percy Anderson
Proceedings:

In Chambers Court Order

The court is in receipt of a Notice of Removal filed
by plaintiff Delaney Smith (Plaintiff) his
Complaint, plaintiff Delaney Smith Jr. a civil
surgeon for the United States of America who
appears pro se (Notice of Removal at 2) alleges
number of state law clauses of action related to his
rejection for a position as a medical staff specialist
at the Los Angeles MLK ambulatory Care Center.
Plaintiffs attempt to remove the complaint must
fail. As provided in 28 U.S.C sec 1441(a) civil
actions over which the court has jurisdiction “may
be removed by defendants.” Accord 28 USC section
1446(a) listing the documents that a defendant or
defendants desiring to remove any civil action to
federal court must file to effectuate the removal).....
Plaintiff simply is not entitled to remove the
underlying action to federal court, and thus must
be remanded to Superior Court. See 28 USC sec
1447(c). Accordingly, this action is hereby
remanded to Los Angeles Superior Court, Case No
BC 4559413 See U.S.C. sec 1447(c)
11a

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED JAN 3, 2018 MOLLY DWYER CLERK
NO. 16-56176

ORDER

D.C. NO. 2:00-CV-05986-RGK CWX
DELANEY E. SMITH,JR.M.D.,an
individual,
Plaintiff-Appellant,
And
STEPHANIE SMITH, an individual,
BALDWIN HILLS MEDICAL GROUP
CORPORATION, a California Medical Corporation
Plaintiffs,
v.
LOS ANGELES COUNTY
METROPOLITAN TRANSPORTATION
AUTHORITY; et al
Defendant-Appellees
Before:
THOMAS, Chief Judge, and Silverman
and Rawlinson Circuit Judges:
Smith’s petition for rehearing en banc (Docket
Entry No. 28) is rejected as untimely. All pending
motions and requests are denied. No further filings
will be entertained in this closed case.
12a

/

V

■»/

■V

STATE OF CALIFORNIA
DIVISION OF WORKERS COMPENSATION
Case No. MON 206148
Joyce Chapman Applicant
v.

Los Angeles County MTA

Defendants

An application having been filed herein: all parties
having appeared and the matter having been
regularly submitted, the Honorable Pamela Foust
Workers Compensation Administrative Law Judge
Finds and ORDERS THE FOLLOWING:
FINDINGS OF FACT
1. The WCAB lacks subject matter
jurisdiction over the claim of the Baldwin
Hills Medical Group.
2. Labor Code section 4609.2 does not apply
to said claim for services in connection
with 1993 injury

3. SAID CLAIM IS NOT BARRED BY THE
DOCTRINE
OF
LACHES
OR
EQUITABLE ESTOPPEL
DATE: 1/17/01
Served on Parties and interested lien claimants on
the above date By Ester Boltton
By Workers Compensation Administrative Judge
Pamela Fouste
13a

